<html>
<title> - DRUG TREATMENT OPTIONS FOR THE JUSTICE SYSTEM</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                 DRUG TREATMENT OPTIONS FOR THE JUSTICE
                                 SYSTEM

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 4, 2000

                               __________

                           Serial No. 106-184

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                   U.S. GOVERNMENT PRINTING OFFICE
70-058                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
              Mail: Stop SSOP, Washington, D.C. 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                   Steve Dillingham, Special Counsel
                          Lisa Wandler, Clerk
                    Cherri Branson, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 4, 2000....................................     1
Statement of:
    Belenko, Steven, senior research associate, National Center 
      of Addiction and Substance Abuse, Columbia University; Dr. 
      Sally L. Satel, M.D., adjunct scholar, American Enterprise 
      Institute, Washington, DC; and Martin Iguchi, co-director, 
      Drug Policy Research Center, RAND Corp., Santa Monica, CA..    47
    Tauber, Judge Jeff, president, National Association of Drug 
      Court Professionals; and Charles J. Hynes, Kings County 
      District Attorney, Brooklyn, NY............................    10
Letters, statements, etc., submitted for the record by:
    Belenko, Steven, senior research associate, National Center 
      of Addiction and Substance Abuse, Columbia University, 
      prepared statement of......................................    50
    Hynes, Charles J., Kings County District Attorney, Brooklyn, 
      NY, prepared statement of..................................    34
    Iguchi, Martin, co-director, Drug Policy Research Center, 
      RAND Corp., Santa Monica, CA, prepared statement of........    73
    Mink, Hon. Patsy T., a Representative in Congress from the 
      State of Hawaii, prepared statement of.....................     6
    Satel, Dr. Sally L., M.D., adjunct scholar, American 
      Enterprise Institute, Washington, DC, prepared statement of    61
    Tauber, Judge Jeff, president, National Association of Drug 
      Court Professionals, prepared statement of.................    13

 
             DRUG TREATMENT OPTIONS FOR THE JUSTICE SYSTEM

                              ----------                              


                         TUESDAY, APRIL 4, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 2254, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Ose, Towns, Mink, Kucinich, 
and Schakowsky.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; Steve Dillingham, special counsel; Don Deering, 
congressional fellow; Lisa Wandler, clerk; Cherri Branson, 
minority counsel; and Jean Gosa, minority assistant clerk.
    Mr. Mica. Good morning.
    I would like call this hearing of the Subcommittee on 
Criminal Justice, Drug Policy, and Human Resources to order.
    With concurrence of the minority, we are going to go ahead 
and begin our hearing. We will be joined by other Members who 
are currently at other meetings. It will allow us to proceed 
with the business before us.
    This is a hearing on drug treatment options for the justice 
system. We have two panels of witnesses before us today. We 
will start the proceedings with opening statements. I will 
begin and will yield to other Members. We will also leave the 
record open for 2 weeks for additional statements by unanimous 
request and so ordered.
    This morning's hearing is going to focus on drug treatment 
options for our judicial systems. Our subcommittee will examine 
drug treatment programs and options that hold promise, we hope, 
in reaching eligible, nonviolent offenders.
    The focus of our hearing is very straightforward and of 
critical importance to our Nation. Can we identify approaches 
and programs for eligible, nonviolent offenders that are 
successful in bringing the chains of drug addiction and 
reinforcing individual responsibility and also restoring 
productive workers to our work force, which result in 
substantial cost savings to our American taxpayers?
    If that is possible, we hope that it is an objective we can 
meet and also shed some light on through today's hearing. If we 
can, we should act without delay in supporting these programs 
on a national level.
    First, we will examine a growing program for handling 
eligible offenders and drug abusers within the judicial system 
that has been used for almost a decade in some jurisdictions 
and appears to be enjoying continued success. The approach I am 
referring to is generally referred to as drug courts.
    Drug courts were first implemented by States and local 
governments which contain our true laboratories of democracy. 
One of the original drug courts was established more than a 
decade ago in my home State in Dade County, FL. Specialized 
drug courts are designed to improve the processing of drug 
cases, and to respond better to the needs of eligible offenders 
with drug abuse problems.
    Another benefit of drug courts is cost savings resulting 
from reduced burdens on our jails and on our prisons. Federal 
funding to support this effort first began in 1989 and took the 
form of Department of Justice discretionary grants to expedite 
the processing of drug cases.
    By 1991, the Department also funded what are known as drug 
night courts, both under its discretionary grants of the Edward 
Burn Memorial State and Local Law Enforcement Assistance 
Program, also referred to commonly as Burn grants.
    This program was named for Eddie Burn, a slain New York 
City police officer who was brutally murdered in 1988 while 
enforcing drug laws. For many years, the Burn Program has also 
served as the primary source of Federal funding for State and 
local assistance, law enforcement, and drug control efforts.
    President Bush kept Eddie Burn's badge in his desk drawer 
in the Oval Office at the White House. I am perplexed, however, 
today at how the Burn Grant Program and antidrug effort have 
fallen out of favor with the Clinton administration. Last 
month, the Clinton administration's budget submission to 
Congress proposed reducing the funding of the Burn formula 
grants by $100 million. Congress previously funded the program 
at the $500 million level. The administration also requested 
that funding for local law enforcement block grants be 
eliminated.
    I feel strongly that the administration should refocus its 
efforts on drug control and that, in fact, our Department of 
Justice should do everything possible to once again incorporate 
antidrug elements into all of our block and discretionary grant 
programs.
    Congress has continued to increase Federal funding for drug 
courts, prosecutor training, and drug treatment for offenders 
since 1989, eventually leading to the creation of a special 
funding program for our drug courts.
    As we will hear today, there are now more than 400 drug 
courts nationwide. For the past 2 years, Congress has funded 
the drug court program at the level of $40 million annually 
with additional funding eligibility under our Burn Grants 
Program and also under our Juvenile Block Grants Program.
    We will hear from experienced analysts who will testify on 
the operation and impacts of our drug courts and describe how 
they have successfully spread across our Nation. We will also 
hear of another innovative approach and a 10-year success story 
in providing drug treatment to eligible, nonviolent offenders. 
That program has been operating since 1990 in Brooklyn, NY. It 
has received quite a bit of notoriety for its success. That 
program is called the Drug Treatment Alternatives to Prison 
[DTAP].
    Although this program has not received the level of 
attention and Federal support as the Drug Court Program, I plan 
to do whatever possible to ensure that this successful approach 
receives increased attention and also bipartisan support in the 
future.
    I am very pleased to have a distinguished witness before us 
today; the District Attorney for King's County, NY, Mr. Charles 
Hynes, one of those individuals responsible for the development 
of this program. He will explain in detail the workings of this 
alternative prison program.
    As we know, as much as 90 percent of State and local 
criminal prosecutions are resolved through plea bargaining 
today. Plea bargains prevent our criminal justice system by 
bringing it to a screeching halt with the sheer volume of cases 
that they are incurring today.
    The DTAP Program is managed by the local prosecutor. It 
allows prosecutors to select only eligible, nonviolent 
offenders for a rigorous program that mandates drug treatment 
and strict observance of program rules and conditions. The 
prosecutor uses the leverage of a substantial prison sentence 
which can be invoked if an offender violates the program 
requirements.
    The program provides a common sense, cost effective option 
for prosecutors, as well as a valuable opportunity to offenders 
who are serious about reforming their lives. As we will learn 
today, evaluation results of the program indicate high 
treatment retention rates, low recidivism, and significant cost 
savings, all elements that the subcommittee and Congress are 
interested in pursuing.
    The 1 year retention rate in drug treatment is as much as 
66 percent. The recidivism rate for participants is less than 
half for comparable offenders, 23 percent compared to 57 
percent. Nearly all employable program graduates, 92 percent, 
are working in vocational programs; only 26 percent were 
employed prior to entering the program. The program has saved 
the city and State of New York more than $15 million.
    Our subcommittee was able to visit this program last 
December and I was able to see firsthand some of the positive 
results of this program. Today, I am announcing my plans to 
introduce legislation which I am entitling, ``Prosecutor Drug 
Treatment Alternatives to Prison for Nonviolent Offenders 
Program,'' a little lengthy but it does describe what we are 
trying to achieve with this initiative.
    It will provide seed funding for State and local 
prosecutors to establish their own drug treatment alternatives 
for eligible, nonviolent offenders who desire to turn around 
their lives, and we are going to use the success of DTAP in 
Brooklyn as a model.
    I hope to enlist the support of other Members of Congress 
who are also interested in enhancing our arsenal of successful 
approaches to reducing the demand for drugs across this Nation. 
This program is an innovative, proven program and I think it 
will also supplement the role of our drug courts which has also 
been another successful program.
    This program represents a first important step in fighting 
the war on drugs in addressing the treatment needs of eligible, 
nonviolent offenders. That is an area I think we have ignored 
that needs our attention. Experience has shown that this 
approach can break addictions, protect lives, assist families, 
promote employment, and save substantial tax dollars.
    When I visited the DTAP Program and talked personally with 
the offenders in this drug treatment program, I saw that it was 
making an important difference in their lives and some of them 
their whole lives. Almost all of them I talked to, some in 
their mid-30's, had spent half their lives in prison or in the 
revolving door of our criminal justice system or victims of 
addiction.
    This program will give them an alternative. This program 
will be funded, that I propose, through grants administered by 
the U.S. Department of Justice. The funds will go to every 
State and directly to urban, suburban, and rural communities 
with demonstrated needs and interest in programs of this 
nature.
    I welcome all of our distinguished witnesses today and 
thank each of you for taking time out of your schedules, your 
busy professional lives, to share with the subcommittee both 
your experience and your recommendations on this important 
topic. I hope we will be able to work together to ensure that 
the future drug demand reduction successes such as the ones I 
have talked about are put into place immediately. Time is short 
and lives really remain in the balance. We must act now if we 
are going to make a difference, particularly for so many of 
those that have no alternative but prison today.
    I am pleased at this time to yield to the gentleman from 
California, Mr. Ose.
    Mr. Ose. None.
    Mr. Mica. No opening statement.
    Mrs. Mink has not arrived at this point, but we shall 
proceed. We have Ms. Schakowsky. Did you have an opening 
statement?
    Ms. Schakowsky. No.
    Mr. Mica. She doesn't have an opening statement at this 
time. Again, we will leave open the record for a period of 2 
weeks for additional statements or for additions to the record.
    With no additional opening statements at this time, I am 
going to introduce our first panel of witnesses. The first 
panel consists of Judge Jeff Tauber, president of the National 
Association of Drug Court Professionals from Alexandria, VA. 
The second witness is the Honorable Charles J. Hynes, the Kings 
County District Attorney for Brooklyn, NY.
    Let me welcome both of our panelists. Let me also inform 
you that we are an investigations and oversight subcommittee of 
Congress. For that, we do swear our witnesses. If you will 
stand to be sworn, raise your right hands, please. Do you 
solemnly swear that the testimony you are about to give before 
this subcommittee of Congress is the whole truth and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Mr. Mica. The witnesses answered in the affirmative.
    Welcome, both of you. At this point, normally we run the 
clock. However, we won't run the clock today, because we only 
have two witnesses on this panel. If you have additional or 
lengthy statements you would like made a part of the record or 
some data or information that deserves to be entered into the 
record, I would be glad to grant that request.
    We have been joined now by the ranking member of our 
subcommittee, the Honorable Member from Hawaii. Before we 
proceed with our two witnesses who I have introduced and sworn, 
it is my pleasure to recognize the gentlelady from Hawaii, Mrs. 
Mink, for an opening statement.
    Mrs. Mink. Thank you, Mr. Chairman. That is perfect timing.
    I want to personally thank you for accommodating my 
concerns about the drug problem in Hawaii and enabling the 
subcommittee to have a hearing in Hawaii on this very important 
matter. I thought the hearings were very productive.
    Mr. Mica. I am still recovering from my 22-hour flight back 
here.
    Mrs. Mink. I am sorry you could only stay 36 hours. That is 
not our fault, that is the leadership. We would have loved to 
have you stay longer.
    This matter of the criminal justice system's use of drug 
treatment as an alternative to incarceration is a very 
important subject. I believe that our discussions today will 
add a great deal to what we have already learned.
    The trip we took to Hawaii, we met and talked extensively 
with inmates who were undergoing drug treatment in the closed 
prison system environment. They were eligible for this 
treatment I believe 14 months before their release. We had an 
opportunity to sit around and talk with about five or six of 
them, to hear the various details of their experience and how 
the treatment was going to impact their ultimate release and 
their ability to stay out of prison again. The difficulties 
that they anticipated upon release were quite profound.
    We also had an opportunity to visit the drug court and to 
see how that system operates as an alternative to imprisonment, 
and to see whether that works. Definitely the criminal justice 
system has a role, not only in law enforcement but in this very 
difficult area of drug treatment.
    I look forward to our discussion today and ask unanimous 
consent that my statement be put in the record at this point.
    Mr. Mica. Without objection, so ordered.
    [The prepared statement of Hon. Patsy T. Mink follows:]

    [GRAPHIC] [TIFF OMITTED] T0058.001
    
    [GRAPHIC] [TIFF OMITTED] T0058.002
    
    [GRAPHIC] [TIFF OMITTED] T0058.003
    
    [GRAPHIC] [TIFF OMITTED] T0058.004
    
    Mr. Mica. I know that many who didn't get to go to 
Honolulu, HI, and visit are disappointed. I had envisioned 
sandy, beautiful beaches, young women in grass skirts. Instead 
I was greeted by the ranking member who took me immediately to 
the Honolulu Police Station and from there took me to the State 
prison where we spent most of the afternoon. Next, we went to a 
housing project with local authorities. The next day we had a 
5-hour hearing and then I thought maybe those beaches were 
still going to be seen, but we ended up in drug court for the 
afternoon before catching our flight to fly all night. I have a 
new admiration for our ranking member who does this on a 
regular basis, going back and forth.
    Mrs. Mink. That just shows you, Mr. Chairman, how important 
treatment is.
    Mr. Mica. Yes. I needed treatment when I got back. 
[Laughter.]
    Again, I thank the ranking member for her invitation. It 
was a very productive hearing and visit. I thank her for that 
opportunity.
    Once again, we have our two witnesses, Judge Jeff Tauber, 
president of the National Association of Drug Court 
Professionals and the Honorable Charles J. Hynes, Kings County 
district attorney, Brooklyn, NY. I will recognize first, Judge 
Jeff Tauber. You are recognized and I also understand you have 
a video. You are free to proceed.

     STATEMENTS OF JUDGE JEFF TAUBER, PRESIDENT, NATIONAL 
 ASSOCIATION OF DRUG COURT PROFESSIONALS; AND HON. CHARLES J. 
      HYNES, KINGS COUNTY DISTRICT ATTORNEY, BROOKLYN, NY

    Judge Tauber. Good morning.
    Chairman Mica, Representative Mink, and esteemed members of 
the Criminal Justice, Drug Policy, and Human Resources 
Subcommittee of the House Committee on Government Reform, my 
name is Jeff Tauber. I am a former judge of the Oakland-Alameda 
County Drug Court and president of the National Association of 
Drug Court Professionals.
    Thank you for affording me this opportunity to testify 
before you today to address drug courts and other innovative 
drug treatment and drug testing programs in the criminal 
justice system. Before I begin speaking about these programs, I 
would like to show you a brief 5 minute video. A little bit of 
background, last year was our 10th year of drug courts. ABC 
national news did a short, 3-minute news tape on the national 
conference. I think it portrays in a very visceral way where 
drug courts have come from, their effectiveness, and where they 
are going.
    Following the film is an actual visit or segment of a visit 
to a drug court in San Diego where Judge Sue Finley sits. I 
might add that Judge Finley is a former judge, recently 
retired, but previously had been dean of California Judicial 
College and a well respected judge in the California State 
system.
    You will see her dealing with someone who is in relapse in 
a very different way than you would expect in a traditional 
court system. The significance of the two I think demonstrates 
the effectiveness of drug courts. I might add that when we 
first began our association in May 1994, there were 24 persons 
sitting in a room in Alexandria from 12 drug courts. Today, I 
am pleased to announce that our conference in Miami had some 
2,400 persons and roughly 700 drug courts existing and being 
implemented. So we have come a long way in a short time. If we 
could roll that short segment now?
    [Video presentation.]
    Mr. Tauber. Perhaps for those who haven't seen a drug 
court, that gives you just a glimpse at the kind of balance, 
both toughness and support that a drug court provides to the 
offender coming through the program.
    At this time, I would like to continue my remarks. Senator 
Ben Nighthorse Campbell stated in the Congressional Record on 
May 26, 1999, ``Drug courts are revolutionizing the criminal 
justice systems. Statistics show us the drug courts work, they 
are clearly cost effective and help convert many drug-using 
offenders into productive members of society. Traditional 
incarceration has yielded few gains for our drug offenders.''
    What is a drug court? A drug court is a special court that 
is given the responsibility to handle cases involving drug 
using offenders through comprehensive supervision, drug 
testing, judicial monitoring, treatment services, immediate 
sanctions, and incentives. Drug courts bring the full weight of 
all intervenors to deal with their substance abuse problems. 
That means judges, prosecutors, defense counsel, substance 
abuse treatment specialists, probation officers, law 
enforcement and corrections personnel, educational and 
vocational experts, community leaders, and others.
    In addition, they ensure consistency in judicial 
decisionmaking and enhance the coordination of agencies and 
resources increasing the cost effectiveness of programs. The 
design and structure of drug court programs are developed at 
the local level to reflect the unique strengths, circumstances, 
and capacities of each community. Since 1989, the drug court 
phenomena has been sweeping the Nation. It is very difficult to 
get a hard number because as we speak, drug courts are being 
created. We know that there are easily over 700 that are 
existing or in the planning stages. Sometimes it is hard to 
know exactly where we are within those numbers.
    Since 1989, approximately 200,000 persons have actually 
entered drug court programs. Many of these programs have 
achieved remarkable success in reducing the levels of drug 
abuse, incarceration, and criminal recidivism among drug using 
offenders. That interest is heightened by the realization that 
these same offenders would otherwise clog our court calendars, 
strain our treasuries, and flood our jails and prisons.
    In 1997, the General Accounting Office reported that over 
70 percent of those who entered drug court programs since 1989 
have either successfully completed their programs or are still 
currently participating. General Barry McCaffrey, Director, 
Office of National Drug Control Policy, has stated, ``The 
establishment of drug courts with their judicial leadership 
constitutes one of the most monumental changes in social 
justice in this country since World War II.''
    More recently, Columbia University's National Center on 
Addiction and Substance Abuse has provided the first major 
academic review and analysis of drug court research to date and 
Dr. Steven Belenko is here and will speak specifically to that 
at a later moment.
    Drug courts make sense as a single drug court judge and 
dedicated program staff apply a direct, immediate and personal 
approach to the drug offender handling all drug cases from 
start to finish. Court procedures are adapted to reflect the 
realities of the offender's substance abuse, a cost effective 
approach to the use of sanctions and incentives is applied, and 
coordinated programs are created for all participants, not just 
the offender. All participants are held accountable for their 
performance and government agencies and community organizations 
work together as part of a unified drug court system.
    With almost 80 percent of arrestees testing positive for 
illegal substances, drug courts and drug testing are logical 
modifications of the traditional criminal justice system. Drug 
courts, in fact, mark a turning back of the judicial time clock 
to a time when judges ran their own calendars and were 
responsible for their court's operations. Defendants had to 
answer directly and immediately to the judge for their conduct, 
and cases moved slowly and purposefully through the judicial 
system instead of relying on negotiated pleas and other 
structures to speed up the court process.
    I would like to add that this extraordinary phenomena is a 
non-partisan phenomena. Both Democrats and Republicans have 
strongly supported it, Conservatives and Liberals as well. I 
would add it has been endorsed by the National District 
Attorneys Association as well as the National Sheriffs 
Association and on the other side, the National Legal Aid and 
Public Defender Associations.
    For those who think of drug courts as perhaps being soft on 
crime, I might add that of the judges who have been drug court 
judges and are drug court judges, 58 percent are former 
prosecutors, while only 23 percent are former defense 
attorneys.
    Drug courts are providing a model for other kinds of court 
involved, community based programs such as DUI drug courts, 
drug courts that deal with multiple DUI offenders, mental 
illness courts that deal with those who are duly diagnosed, 
domestic violence offenders and juvenile and family drug court 
participants and finally, most recently, reentry drug courts 
which actually deal with offenders who are leaving jails or 
prisons and enter drug courts as a means to monitor their 
behavior and also to provide rehabilitation services to them.
    Finally, I wanted to indicate that this idea, system, or 
approach has spread now to the international community. There 
is an International Association of Drug Court Professionals. 
The United Nations Drug Control Program has developed its own 
standards for drug courts and there are some six nations now 
that have drug courts besides the United States and 12 more 
that are in the planning stages.
    We believe this is an extraordinary phenomena and one we 
hope this committee and the Congress will continue to support.
    Thank you very much for your patience.
    [The prepared statement of Judge Tauber follows:]

    [GRAPHIC] [TIFF OMITTED] T0058.005
    
    [GRAPHIC] [TIFF OMITTED] T0058.006
    
    [GRAPHIC] [TIFF OMITTED] T0058.007
    
    [GRAPHIC] [TIFF OMITTED] T0058.008
    
    [GRAPHIC] [TIFF OMITTED] T0058.009
    
    [GRAPHIC] [TIFF OMITTED] T0058.010
    
    [GRAPHIC] [TIFF OMITTED] T0058.011
    
    [GRAPHIC] [TIFF OMITTED] T0058.012
    
    [GRAPHIC] [TIFF OMITTED] T0058.013
    
    [GRAPHIC] [TIFF OMITTED] T0058.014
    
    [GRAPHIC] [TIFF OMITTED] T0058.015
    
    [GRAPHIC] [TIFF OMITTED] T0058.016
    
    [GRAPHIC] [TIFF OMITTED] T0058.017
    
    [GRAPHIC] [TIFF OMITTED] T0058.018
    
    [GRAPHIC] [TIFF OMITTED] T0058.019
    
    [GRAPHIC] [TIFF OMITTED] T0058.020
    
    [GRAPHIC] [TIFF OMITTED] T0058.021
    
    [GRAPHIC] [TIFF OMITTED] T0058.022
    
    [GRAPHIC] [TIFF OMITTED] T0058.023
    
    Mr. Mica. Thank you, Judge Tauber.
    I would now like to welcome the Honorable Charles Hynes, 
District Attorney, Kings County, NY.
    Mr. Hynes. Thank you, Mr. Chairman and Congressman Ose. I 
surely want to thank Chairman Mica and Congresswoman Mink and 
the other members of the committee, and my distinguished 
colleague from Brooklyn, Ed Towns, for the opportunity to speak 
to this committee about our drug treatment as an alternative to 
prison.
    I have copies of the annual report which I have submitted 
and I would like to touch on a few highlights of the program. 
My county is known to most people as Brooklyn and is the 
largest county in New York State. It has 2.3 million people, 
the seventh largest county in the United States and were it a 
city, it would be the fourth largest.
    At the time I became district attorney in 1990, our slogan 
was, ``Brooklyn, a nice place to visit, a great place to 
live,'' a cruel joke because by 1990, Brooklyn had become the 
fifth most violent municipality in the United States per 
capita. There were 765 murders in Brooklyn in 1990, more than 2 
a day. There were 36,000 armed robberies, 39,000 burglaries and 
nearly 55,000 larcenies. Obviously, anybody looking at the 
problem knew it was fueled by drugs. It was out of control and 
there didn't seem to be any way of looking at this other than a 
jail being only solution.
    It was a decision I made in 1990 that we had to do 
something about reducing the demand for drugs in society. So we 
had to do something about ending the revolving door that 
literally had people going to jail for life on the installment 
plan, getting arrested, going to jail, getting out, going back 
to the neighborhood without a job, getting arrested again, and 
off they go to jail and so on.
    We decided to try a coercive form of rehabilitation, that 
people who were charged with selling drugs for their own drug 
habit would have a choice, come into our program, go into long-
term drug rehabilitation, 15 to 24 months, and if you 
successfully complete it, we will give you something you have 
never had before, an education opportunity or a job 
opportunity.
    I hired a job developer, and worked with a business 
advisory council in Brooklyn to identify jobs for these 
graduates. If you don't do it, or leave the program, we have an 
enforcement theme that will pick you up and when 96 percent 
effective within 9 days on the average, you will plead guilty 
before we will put you into the program to a felony that sends 
you to prison for as much as 9 years. If you get caught after 
leaving the program, you are going back to prison, or you are 
going to prison and will get no credit for any time served in 
the program.
    Ten years after this program started, I am proud that it is 
a successful model which I am very grateful to Congressman Mica 
for considering legislation to advance it for other prosecutors 
throughout the country.
    It is controlled by the prosecutors, and is very selective 
about who we take. Typically, we take one in three. These are 
all people who are facing a second felony offense, a minimum of 
2-1/3 to 4 years in prison and up to 4 to 9 years in prison. We 
have had the toughest laws in the country called the 
Rockefeller drug laws. We followed those laws up with mandatory 
minimum sentences for second felony offenders. The problem has 
been that we have had no alternative to the use of those 
programs. There was no opportunity to have people try another 
way. We think the drug treatment alternative is that other way.
    No one with any history of violence is permitted into the 
program, no one with a history of absconding is allowed in the 
program, no one with any very serious psychiatric problems--we 
are beginning to deal with the problems of those affected in a 
dual way with psychiatric problems but we are very careful as 
to who we put into the program.
    If the person successfully completes the 15 to 24 months in 
drug treatment and is in job development, we then dismiss the 
felony charge. The enforcement team is a critical part of this 
effort as well as the fact that we have job opportunities.
    We compared a study of recidivism and our graduates have a 
23 percent recidivism rate as compared to 47 percent of those 
who go to prison who are eligible for our program but don't 
accept it. It cuts the recidivism rate in half.
    Its retention rate for 1 year is 66 percent, much higher 
than the national average and 60 percent of our participants 
who have graduated are still in treatment.
    DTAP is a money saver. It helps our graduates find jobs 
because of our job training program and 92 percent of our 
employable graduates are working or in some form of job 
training programs. Of the 441 graduates, they have saved the 
taxpayers of New York State over $16 million in reduced costs 
for incarceration, health care, and public assistance and with 
their increased tax revenues based on their jobs.
    DTAP is less costly than incarceration. A typical drug 
offender in New York State, spending 2 years in prison, will 
cost our taxpayers $82,000 for that period. In the same period, 
a drug treatment placement costs $42,000. The saving in prison 
cost is at minimum, $11 million during the period of the 
program.
    DTAP has credibility with other prosecutors. All of the 
other four district attorney offices in New York City are using 
the program as is our citywide Special Narcotics Prosecutor.
    I am very confident that based on the track record, DTAP 
can be successful in other States because it has shown a high 
retention rate, lower recidivism rates, and cost savings of 
millions of dollars. As I have said to Congressman Mica and his 
staff, I would be more than happy to help any other 
jurisdiction in this country to create their own DTAP 
initiative.
    I would be happy to take any questions you may have.
    [The prepared statement of Mr. Hynes follows:]

    [GRAPHIC] [TIFF OMITTED] T0058.024
    
    [GRAPHIC] [TIFF OMITTED] T0058.025
    
    [GRAPHIC] [TIFF OMITTED] T0058.026
    
    [GRAPHIC] [TIFF OMITTED] T0058.027
    
    [GRAPHIC] [TIFF OMITTED] T0058.028
    
    [GRAPHIC] [TIFF OMITTED] T0058.029
    
    Mr. Mica. Thank you for your testimony.
    We have been joined by the gentleman from Brooklyn, with 
whom I have had the honor and privilege of working together on 
this subcommittee and other subcommittees. One of which he 
chaired visited Brooklyn under his chairmanship and also 
recently conducted a hearing in New York City at his request; 
the gentleman from New York, Mr. Towns. You are recognized if 
you want to make a statement or proceed in any way at this 
point.
    Mr. Towns. I would like to insert my statement in the 
record but I would also like to say to the witnesses, 
especially my friend from Brooklyn, the District Attorney Joe 
Hynes, that we know of his great work, so I am happy to hear 
his testimony. I will just hold any further statements until 
the question and answer period.
    Mr. Mica. Without objection, your statement will be made a 
part of the record.
    First of all, in the video we saw, Mr. Tauber, at the end 
it said the drug courts had an 80 percent success rate. Is that 
an accurate statement?
    Judge Tauber. It is very difficult to give statistical 
analysis. I am going to leave that to Dr. Belenko. For one 
thing, every community is so different that to ascribe a 
specific ratio, to compare Brooklyn to Scarsdale, for example, 
you have very different populations, different drugs of choice, 
and the level of addiction can be very different. I don't feel 
like I personally ought to respond to that. I will allow Dr. 
Belenko to do that.
    Mr. Mica. Is there any percentage you would care to provide 
for the subcommittee as far as the success rate through the 
drug courts, 50 percent, 25 percent? Is there any collection of 
data that is available that would substantiate some success?
    Judge Tauber. Yes, I think there is. There have been a 
number of studies completed. One study by the Government 
Accounting Office looked at those persons who have entered drug 
courts since 1989 and found that over 70 percent have either 
successfully graduated from the program or were still actively 
participating.
    It is interesting to note; American University revised or 
looked at that data again since 1997 in 1999 and found the 
numbers were consistently over 70 percent.
    I also think Dr. Belenko can speak to this better than I 
but in his statistics, he shows that of those who do not enter 
drug courts but enter treatment, half leave within 90 days. 
When you look at drug courts, 60 percent of those who enter are 
still in drug courts after a year, which shows an extraordinary 
retention rate. All the scientific data and investigation I 
have ever seen has created a direct correlation between the 
length of time a person stays in treatment and the success of 
that person in the program and the length of sobriety they 
enjoy afterwards. On those two bases, we can see there have 
been great successes in drug courts.
    In my own drug court we found that we had half the number 
of days persons spent in custody over the 3-years following 
drug courts and as a matter of fact, double those who succeeded 
and graduated from the program. Once again, that is just one 
program and was a number of years ago.
    I think more significantly Dr. Michael Finigan from the 
University of Oregon did a cost benefit analysis of the 
Portland Drug Court which has been around since 1992 and found 
that for every dollar spent in the drug court, the county was 
saving $2.50. When he looked at the State savings, he found 
some $10 saved for every $1 saved.
    There is one other point I would like to make in that 
regard. The typical drug court costs approximately $2,000 to 
$2,500 a year per participant. The typical jail and/or prison 
starts at $20,000 to $25,000 per year to incarcerate. Clearly, 
there is a very strong cost savings element as well.
    Mr. Mica. The other question I would have would be what 
percentage of those involved in committing some type of a drug 
offense are eligible for drug courts?
    Judge Tauber. Drug courts are a grassroots phenomena. That 
is where its strength is. They reflect their communities 
politically, economically as well as otherwise, so it is very 
difficult to describe to you the population that is going to 
get in because in one community, honestly, it will be persons 
charged with possession of small amounts of drugs, and in other 
communities, they will be dealing with people charged with 
burglaries, minor felonies, and others who are not even charged 
with drug offenses but where it is clear the offense is related 
to drugs.
    Mr. Mica. Are they designed for first time offenders and 
also for minor offenses?
    Judge Tauber. They started out in Miami dealing 
specifically with divertees and first-time offenders. As they 
have become more successful, and as they have proven themselves 
in places like Las Vegas, San Bernardino, CA, they have gone 
from small programs with 100 or 75 persons in San Bernardino to 
where Judge Pat Morris now has some 1,400 in his drug court or 
Las Vegas where they started out with 100 persons and now have 
1,800.
    By the way, the Nevada Governor has instituted and passed 
legislation so that individuals presently in prison for drug 
offenses, some 300 this next year are expected to be released 
into the drug court rather than go to parole because the drug 
court has proven more successful than parole and is far 
cheaper.
    Mr. Mica. I have additional questions but I would like to 
yield to the ranking member, Mrs. Mink.
    Mrs. Mink. Judge Tauber, the system that we have in 
existence switched from giving courts discretion in sentencing 
to a huge array of mandatory minimums. In the drug court 
situation, how does that system circumvent the mandatory 
minimum requirement that the States impose upon the conviction 
of individuals for certain very specific crimes?
    Judge Tauber. Many States don't have mandatories or if they 
do, judges are able to sentence people to jail or prison and to 
suspend the sentence and allow them to enter the drug court 
program with the condition that if they successfully complete 
the program, the probation will be terminated or the sentence 
will not be served.
    There are several kinds of drug courts. One is a diversion 
court which goes back to Miami which is a pre-plea court and 
most recently, we are seeing more and more, perhaps 70 percent, 
of courts now are post-plea courts dealing with more serious 
offenders and many, many courts, perhaps the majority of 
courts, have both divergent courts dealing with light, first 
offenders and post-plea courts dealing with more serious 
offenders.
    Mrs. Mink. My question was, in jurisdictions where you have 
minimum mandatories, how do you overcome those statutes in 
existence and place individuals who have pleaded guilty into 
this program rather than serve their minimum mandatory jail 
sentence?
    Judge Tauber. I couldn't respond except to say that there 
are drug courts in every State in the Union.
    Mrs. Mink. They are not abiding by the law?
    Judge Tauber. I can tell you there are 110 drug courts in 
California and I think there is one in Rhode Island.
    Mrs. Mink. I realize that. I am just wondering how they get 
started under the circumstances of these prior existing 
mandatories.
    Mr. Hynes. Can I help out because we have mandatory 
sentencing in New York State.
    Mrs. Mink. So do we in Hawaii and I have a drug court. I 
was wondering how they balance it.
    Mr. Hynes. Preindictment, I have total authority in my 
county.
    Mrs. Mink. Is that by statute?
    Mr. Hynes. Yes.
    Mrs. Mink. So the legislature, in my case, would have to 
pass a law which says that the courts would have the right.
    Mr. Hynes. Once there is an indictment, there is no 
discretion in New York, so I do it pre-indictment.
    Mrs. Mink. Or you don't require them to plead guilty?
    Mr. Hynes. No, I require them to plead guilty to a State or 
Supreme Court information but it is pre-indictment, so I retain 
the discretion.
    Judge Tauber. There is a drug court in Brooklyn that I 
believe, Mr. Hynes. Do they use the same procedure?
    Mr. Hynes. Yes.
    Mrs. Mink. I think that in order for people to understand 
exactly what the drug court is, we have to be able to explain 
how an individual is selected for the program. Some go to jail, 
some go to drug court. What is the definition between those two 
areas? Obviously it is better to be in drug court. Obviously it 
works better, obviously it is cheaper for the government. The 
question is, are there statutory steps that must be taken.
    In the selection process, we have to be very careful that 
we are not selecting people out by various factors of 
discrimination. I believe it works. We went to see one in 
Hawaii as it is practiced. The foundations of it seem somewhat 
hazy, as to exactly how the program distinguishes between those 
that go to jail and those that don't.
    Thank you very much, Mr. Chairman.
    Mr. Mica. I would like to recognize the gentleman from 
California, Mr. Ose.
    Mr. Ose. I have a couple of questions on the testimony from 
District Attorney Hynes. There is a phrase in here that I 
didn't understand on page 2. I know what the word means in 
normal language. I don't quite understand it in this context. 
It says, ``The program is offered only to non-violent, 
predicate drug offenders for a certain punishment.'' What does 
that word mean?
    Mr. Hynes. Predicate means they have been previously 
convicted of a sale of drugs for their own habit. If you 
remember the young fellow who testified before you and the rest 
of the committee several months ago, Fred Cohen; he was someone 
who had been convicted of selling drugs for his own habit. Then 
he got arrested again. He was a predicate offender. New York 
State law has a mandatory jail sentence unless I exercise 
discretion pre-indictment.
    Mr. Ose. The second question I have, I noticed in your 
testimony you highlight a recidivism rate of 23 percent and a 
retention rate of 66 percent.
    Mr. Hynes. Yes.
    Mr. Ose. I am hopeful that you can explain. If I 
understand, the recidivism rate is someone who has been through 
the program and a retention rate is someone who is in the 
program?
    Mr. Hynes. Within the first year of the program, the 
retention rate is 66 percent.
    Mr. Ose. Retention rate meaning?
    Mr. Hynes. Staying in the program.
    Mr. Ose. So they are clean, have stayed in the program for 
a year, two-thirds of the people have complied. So one-third 
have not?
    Mr. Hynes. Yes, which to the national average is like 12-15 
percent retention rate for this population.
    Mr. Ose. In terms of a non-drug court.
    Mr. Hynes. For this population in non-drug court. These are 
the people who have hit bottom, Mr. Ose. This is their last 
chance.
    Mr. Ose. Pre-indictment?
    Mr. Hynes. Yes, sir.
    Mr. Ose. The recidivism rate is people who have completed 
the program whether it be drug court or non-drug court and it 
is 23 percent?
    Mr. Hynes. Our population is 23 percent for the drug 
treatment alternative to prison.
    Mr. Ose. I think District Attorney Hynes said there is a 
retention rate in treatment of 50 percent and courts, 66 
percent. The treatment you are referring to there, would that 
be private treatment?
    Mr. Hynes. It is not 50 percent.
    Mr. Ose. I have lost the reference. I will come back to 
that.
    Judge Tauber, if I understand correctly, your testimony is 
``District Attorney Hynes very clearly says that 96 percent of 
the absconders are returned to court in a median time of 9 
days.'' Your testimony says, ``The failure to appear rate has 
dropped from 36 percent to 3 percent.'' So that would be 
consistent. You would be at 97 percent and he is at 96 percent.
    Mr. Hynes. It is a different population, Congressman.
    Judge Tauber. It is a different population. I think 
different parameters as well.
    Mr. Ose. You talk here in terms of a drug court?
    Judge Tauber. Yes, sir.
    Mr. Ose. Talking about the rate at which people fail to 
appear. You are talking about the DTAP program where the 
prosecutors have control?
    Mr. Hynes. These are people actually in treatment, 
residential treatment. The coercive part of it is if they leave 
the program, they are picked up.
    Let me say a word about the drug court. I was not a great 
fan initially of the drug court. I am now convinced that the 
drug court is an exceptionally efficient way to do cases in my 
county for misdemeanors and a selected number of felonies, so 
we are very satisfied with the success of our drug court in 
Brooklyn.
    Mr. Ose. I want to make clear that the appearance rate 
under the prosecutor-driven process is 96 percent and the 
appearance rate within a 9-day median under the Drug Corp is 
different.
    Mr. Hynes. Let me try and explain. When someone leaves my 
program, they are in Daytop Village and are in the middle of 
their 15 or 20 month stay at Daytop Village. If they leave, 
there is a 96 percent chance they are going to be grabbed 
within 9 days. So 96 percent of the people who left our program 
are picked up within a median time of 9 days. They are in the 
program and they just walk off.
    Mr. Ose. Those are the only questions I have, Mr. Chairman. 
Thank you.
    Mr. Mica. I would be pleased to recognize the gentlelady 
from Illinois, Ms. Schakowsky.
    Ms. Schakowsky. Thank you very much.
    I am not an attorney but I was a State legislator and there 
was a period where we were every other day passing some kind of 
mandatory minimum sentence relating to drugs. Like my colleague 
from Hawaii, I am a bit confused about the interface between 
these mandatory minimum sentences and this alternative 
programming. Am I to understand that what really matters here 
is what people end up being charged with, what the indictment 
is, and that there is discretion there. Once there has been an 
indictment, if there is a mandatory minimum, there is no way 
around it?
    Mr. Hynes. In New York state, once we have an indictment, 
we lose discretion.
    Ms. Schakowsky. What we are talking about here is the 
prosecutor's discretion? Is that what enables this?
    Mr. Hynes. They need our involvement in the drug court. We 
have to agree to it. We are a partner in the DTAP program. We 
totally control the process because we are dealing with a much 
more severe kind of population.
    Under the State constitution in New York State, the 
district attorney is the chief law enforcement officer of the 
county. He or she decides who is going to be prosecuted and 
under what charge. Using that authority before indictment, I 
exercise discretion. Once we get an indictment, I have lost 
discretion.
    Ms. Schakowsky. I understand that.
    Judge Tauber. I might add. It may not sound like a very 
satisfactory answer but there are 50 States and every one of 
them has a different statutory setup. Drug courts have managed 
to find ways to deal with mandatories to my knowledge in every 
one of them.
    In some places, it is like New York where you have to move 
either preindictment. Washington, DC, the place where they find 
room to maneuver is between the time of plea and the time of 
sentence because once a person is sentenced, they must be 
sentenced to a mandatory minimum. So they enter the person into 
the drug court at the time of plea and the person is not 
sentenced until they complete the program or flunk out.
    I guess what I am suggesting is that there is flexibility 
in systems. We would like more flexibility from the State 
legislators but drug courts have been able to operate.
    One of our disappointments is that perhaps we are reaching 
3 or 4 percent of the eligible population throughout the United 
States. There are some 2 million persons placed on probation, 
according to the Bureau of Justice statistics for drug and 
alcohol offenses who, BJA determined or concluded, have a 
serious drug or alcohol problem. Of that, we have perhaps 
250,000 involved in these programs. We would like to see drug 
courts expand because as they are proving themselves, it is 
important they have that opportunity.
    Ms. Schakowsky. Let me ask you this, because I think that 
is an important piece of it. Who gets chosen and how does that 
happen? I am wondering if we have a profile of those 
individuals who are diverted from the usual incarceration? Is 
it a middle class phenomenon, are we talking also a 
proportionate number of people of color?
    Judge Tauber. This is my standard response; it depends on 
the community. In communities where such is open, let me give 
Oakland as an example. The persons entering the program were 80 
percent African American males, because that reflected those 
persons being charged with possession for small amounts of 
drugs, typically crack-cocaine or other serious drugs. People 
were actually diverted under the California statute out of the 
regular system in California.
    Ms. Schakowsky. By statute, you say?
    Judge Tauber. By statute.
    Ms. Schakowsky. People who might be eligible are 
nonviolent.
    Judge Tauber. I can tell you book and footnote about 
California, that is one State. I could not do that for New 
York, but in California if you did not have a prior felony, did 
not have prior drug conviction for 5 years, and if you were not 
charged with an offense that involved sales or violence, you 
were eligible for diversion.
    Hawaii, I am quite certain, has a very different setup but 
drug courts, the genius of them, is that they are community-
based and that individual communities find what populations are 
appropriate. That may be very different depending on the 
politics, resources, and the socioeconomic background of that 
community.
    Ms. Schakowsky. Thank you.
    Mr. Hynes did you have a comment on that?
    Mr. Hynes. It depends where the program fits. In Kings 
County, a very high percentage of our client population are 
Latinos, the largest population of participants are people of 
color. If it was in Jefferson County or Clinton County in the 
north country, it would be all Caucasian. The client population 
are drug addicts who typically come from impoverished 
situations, little or no education, almost no jobs and they 
have drifted into this lifestyle.
    We eliminate people charged with violent felonies, those 
who have serious prior absconding records and we try and select 
people we believe have a real interest in turning around their 
lives. We are very, very careful in the screening process. I 
think that is key because we are dealing with a population that 
has hit rock bottom.
    Representative Mink was here when Fred Cohen testified 
before this panel. Here was a kid who for 20 years was in the 
gutter. He now makes $45,000 a year and pays taxes on that, has 
a wife and two kids but he was so bad, he used to take glasine 
envelopes and sniff them to try to get residue to get high. It 
was a tragic problem, but today he is actually the President of 
our drug treatment association.
    Ms. Schakowsky. Thank you.
    Mr. Mica. I want to thank our panelists. You bring to the 
Congress and to our subcommittee several alternatives to 
incarceration. One is the drug court program which has been 
successful in many jurisdictions; second, being the DTAP 
Program, which again does offer some alternative and both good 
examples of what we can do.
    Unfortunately, these only address a small percentage of the 
population we have to deal with, but they do provide us with 
some positive alternatives and steps that hopefully can be 
replicated.
    Mr. Hynes. May I close with two points? First, thank you, 
Congressman Mica, for having the foresight to introduce this 
kind of legislation. You are right, it is not an 
extraordinarily large population. As I said to a good friend of 
mine and a Member of Congress 10 years ago when he said, ``what 
is it, a damned 100 people?'' I said, ``it is a damned 100 
people we have never tired to cure.''
    We have 441 taxpayers out of that program and I am very 
proud of them and pleased and grateful to you, Congressman 
Mica, for this opportunity.
    Mr. Mica. Thank you both and we look forward to working 
with you and hopefully we can replicate these successful 
programs across the country.
    We will call our second panel which consists of Steven 
Belenko, senior research associate, National Center of 
Addiction and Substance Abuse, Columbia University, New York; 
Dr. Sally L. Satel, adjunct scholar, American Enterprise 
Institute here in Washington, DC; and Mr. Martin Iguchi, co-
director, Drug Policy Research Center, RAND Corp., Santa 
Monica, CA. I am pleased to welcome all three of our witness.
    If you will stand at this time to be sworn and raise your 
right hands. Do you solemnly swear that the testimony you are 
about to give before this subcommittee of Congress is the whole 
truth and nothing but the truth?
    [Witnesses respond in the affirmative.]
    Mr. Mica. The witnesses answered in the affirmative.
    We will hear first from Steven Belenko, senior research 
associate, National Center of Addiction and Substance Abuse, 
Columbia University, New York. Welcome and you are recognized.

   STATEMENTS OF STEVEN BELENKO, SENIOR RESEARCH ASSOCIATE, 
  NATIONAL CENTER OF ADDICTION AND SUBSTANCE ABUSE, COLUMBIA 
UNIVERSITY; DR. SALLY L. SATEL, M.D., ADJUNCT SCHOLAR, AMERICAN 
  ENTERPRISE INSTITUTE, WASHINGTON, DC; AND MARTIN IGUCHI, CO-
   DIRECTOR, DRUG POLICY RESEARCH CENTER, RAND CORP., SANTA 
                           MONICA, CA

    Mr. Belenko. Thank you, Mr. Chairman.
    I appreciate the opportunity to come before you this 
morning and talk about my research on drug courts and 
innovative prosecution programs.
    I have been studying the impact of drugs on the justice 
system, including policy and programmatic responses to this 
problem, for some 15 years. During the past 8 years, I have had 
a particular interest in drug courts and have visited many 
around the country, studied their impacts and reviewed a number 
of research reports and evaluations on their effectiveness.
    In addition, for the past 5 years, I have been conducting 
an extensive evaluation of the Kings County DTAP Program under 
a grant from the National Institute on Drug Abuse.
    My remarks will center on two areas, one, the lessons 
learned thus far about the operations and effectiveness of drug 
courts and the potential role of prosecutorial based treatment 
in saving tax dollars by introducing treatment to other 
segments of the criminal justice population.
    The first program was implemented in Dade County in 1989. 
The current generation of treatment drug courts has established 
an important presence in America's criminal court system. In 
many jurisdiction, drug courts have become the intervention of 
choice for linking drug or alcohol-involved offenders to 
community-based treatment and related interventions.
    The key goals of drug courts are to reduce drug use and 
associated criminal behavior by engaging and retaining drug 
involved offenders in treatment and related services. Also, to 
concentrate expertise about drug abuse and addiction and 
treatment into a single courtroom under a single judge and 
staff, and to address other defendant needs through case 
management and clinical assessment.
    The question of whether drug courts should be thought of as 
coerced treatment is an interesting one but difficult to 
answer. Drug courts are generally considered voluntary in that 
offenders generally have the right to accept or decline 
participation once screened for eligibility and to have their 
case prosecuted through regular channels.
    Some drug courts also allow offenders an opportunity to opt 
out of the drug court after a week or two of trying it out with 
no loss of legal rights. However, there are some coercive 
elements to the drug court experience which may help to explain 
their success in retaining offenders.
    For example, defendants may feel subtle or direct pressure 
to participate in drug court because of fears of the 
consequences of prosecution. Also the close judicial 
supervision and monitoring, regular drug testing, and graduated 
sanctions typical of drug courts may be considered coercive in 
their own right.
    Also the immediacy of sanctions imposed in most drug 
courts, unlike sanctions imposed under probation or parole 
supervision, may increase the relevance and behavioral impact 
of judicial responses.
    When interviewed, participants have noted the importance of 
the certainty, the swiftness and the predictability of the 
sanctions for noncompilant behaviors.
    My review of drug court research is based on an article I 
produced in 1998 which was published in the National Drug Court 
Institute Review in which I reviewed about 30 existing 
evaluations. I recently updated that and that will be out 
shortly in a new issue of the National Drug Court Institute 
Review. I have reviewed another 30 evaluations so my remarks 
and assessment about drug court impacts is based on review of 
those 60 evaluations, as well as the GAO report from 1997 and 
periodic surveys of drug courts conducted by American 
University Drug Court Clearinghouse.
    The structure and procedures in drug courts do result in 
closer and more frequent supervision of offenders than 
typically seen under standard probation or pretrial 
supervision. The data indicate that a number of court 
appearances, number of drug tests, the level of supervision and 
the contacts with treatment providers are substantially more 
frequent under drug court law than under other forms of 
community supervision.
    The drug court model also differs in important ways from 
previous efforts to provide drug treatment of offenders. The 
various components of the criminal justice and substance abuse 
treatment systems work together to try and use the coercive 
power of the court to promote abstinence and pro social 
behavior, as well as treatment retention.
    By comparison, the types of nonviolent drug offenders 
typically targeted by drug courts will often receive probation 
or short jail sentence with little treatment or close 
supervision in the community. In addition, drug courts often 
seek to standardize the treatment process by requiring discrete 
treatment phases, a minimum length of program involvement or 
specific requirements for the quantity and type of services. 
This structure offers an opportunity for the judicial officer 
to monitor compliance with the drug court requirements, provide 
rewards for advancing through different phases or participating 
in certain levels of treatment in a way that can be quantified. 
That is predictable for the participant.
    Some of my key conclusions are, first of all, in terms of 
drug use and treatment history, there is some discussion about 
the type of population generally served by drug courts. As 
Judge Tauber pointed out, there is a lot of local variation in 
the target populations but trying to generalize across the 
country, drug courts generally serve a clientele that do have 
extensive histories of substance abuse, but little prior 
treatment.
    The average age of adult drug court participants is in the 
early 30's, as it is in the DTAP Program, and they have been 
using illegal drugs for some 10 to 15 years.
    In the survey conducted by the American University 
Clearinghouse of drug court participants, only 26 percent of 
the participants had been in a prior substance abuse treatment 
program, although 72 percent had been in jail or prison. These 
rates are similar for overall rates for both treatment 
participation and prior incarceration found in surveys of 
arrestees. Similarly for surveys of probationers.
    In terms of treatment retention, I think that a key impact 
of drug courts as well as the DTAP Program has been its ability 
to retain offenders in treatment. The research on drug 
treatment outcomes has consistently found that time in 
treatment is closely related to successful outcomes, including 
reduced relapse and reduced criminal behavior.
    I estimate nationally about 60 percent of those who enter 
drug courts are still in treatment after 1 year, although most 
drug courts require a minimum program length of 1 year. The 
percentage of all admissions who actually graduate from drug 
courts is a little bit lower than that 60 percent figure. The 
GAO report in 1997 estimated that 48 percent of those who enter 
drug courts graduate. My conclusion is that is probably a 
little low but generally around 50 percent of those who enter 
drug courts would be expected to graduate.
    These retention and completion rates are substantially 
higher than seen in studies of community based treatment 
programs.
    In terms of drug use and criminal behavior while under drug 
court supervision, the existing research suggests that drug 
court participants have a low rate of drug use as measured by 
urine tests which indicates high rate of program compliance. 
For example, for 13 drug courts reporting test results in 1998, 
an average of only 10 percent of those tests were positive for 
illegal drugs, in contrast to drug tests of other defendants in 
those jurisdictions under probation supervision where the 
positive rate was 31 percent.
    In terms of recidivism, a number of drug court evaluations 
have found that rearrest rates were substantially reduced while 
offenders are under drug court supervision.
    There are probably four or five evaluations that have 
looked at the costs and benefit of drug courts, although they 
have used different measures, different time periods and it is 
hard to generalize. But all have found in one area or another 
reduced costs and the data thus far suggest that for the long 
term, drug court economic benefits will outweigh the costs.
    The study was done by Dr. Michael Finigan in Oregon and he 
did find substantial local and State taxpayer savings as 
measured with a number of outcome measures from that drug 
court.
    A key issue in drug courts is their effect on recidivism 
and public safety. The studies I have reviewed thus far, 21 of 
those evaluations have examined post program recidivism 
generally measured by rearrest and generally for a time period 
of 1 year after completing the drug court. Of those 21 
evaluations that have also used a comparison group from which 
we can measure the relative impact of drug courts, 16 of those 
studies found that the drug court reduced rearrest for those 
who went through the system, looking at everyone who went into 
the drug court, not just those who successfully graduated. The 
size of that impact does vary across jurisdictions.
    [The prepared statement of Mr. Belenko follows:]

    [GRAPHIC] [TIFF OMITTED] T0058.030
    
    [GRAPHIC] [TIFF OMITTED] T0058.031
    
    [GRAPHIC] [TIFF OMITTED] T0058.032
    
    [GRAPHIC] [TIFF OMITTED] T0058.033
    
    [GRAPHIC] [TIFF OMITTED] T0058.034
    
    [GRAPHIC] [TIFF OMITTED] T0058.035
    
    [GRAPHIC] [TIFF OMITTED] T0058.036
    
    [GRAPHIC] [TIFF OMITTED] T0058.037
    
    [GRAPHIC] [TIFF OMITTED] T0058.038
    
    Mr. Mica. Thank you for your testimony.
    We will now recognize Dr. Satel.
    Dr. Satel. Thank you, Mr. Chairman.
    I am also a staff psychiatrist at a local substance abuse 
clinic, and worked in the D.C. Drug Court a few years ago.
    I was asked to talk to you today about the clinical aspects 
of mandated treatment and why it works. It certainly does work 
as volumes of data can confirm. How can this be? How can it be 
that drug abusers, many of whom actually have little interest 
in going into the treatment--that is something you don't hear a 
lot about but many of these folks are not interested in 
treatment at first. They are interested in either avoiding the 
mark on their record or avoiding potential jail or probation. 
That is why they choose it. So how can people who don't have 
that much interest in treatment benefit from it? How is it that 
drug abusers can respond when they are told by the criminal 
justice system that they either participate in this program or 
something bad will happen to them, they will either go to jail 
or get a record?
    A lot of people can't believe that addicts who enter 
treatment unwillingly or halfheartedly can still benefit as 
much or more than addicts who show up freely at a clinic and 
ask to be admitted. This reality forces us to rethink one of 
the most trusted fictions in drug treatment; that a person has 
to want to get better in order to benefit from treatment. That 
is the fiction that drug courts and other forms of mandated 
treatment put to rest.
    The main reason that mandated treatment works is that it 
keeps people in longer. You have heard that before. Retention 
is key, the longer one stays, the better one does, the better 
health, the less drug use, the less crime, the more employment. 
Addicts who are levered into treatment do tend to stay longer. 
This is for two reasons.
    First, they stay longer because as I said before, the 
alternative in their eyes can be worse, but later because they 
really do see the benefits of treatment at the work programs 
they participate in or the educational programs which do help 
them feel more confident and more encouraged about their 
future. They feel physically better and they often get 
reabsorbed into the warmth of their families, something they 
have been estranged from for quite a while.
    I have introduced dozens of drug court patients and not 
all, but a lot of them are enthusiastic from day one, but many 
of them are not. One might say they weren't happy campers when 
they came into the program but the longer they stayed, the 
rehabilitation made sense to them. In other words, they stay at 
first because they have to, but ultimately they complete it, 
most of them, about 50 to 60 percent, because they want to.
    Ultimately, without some sort of leverage, the standard 
dropout rate is very large. We have heard this already and 
refer to it as the retention deficit disorder. About half drop 
out in the first 3 months and at the end of 1 year, between 1 
and 10 and 1 and 20 remain.
    When you think about the psychology of addiction, these 
dropout rates make perfect sense. Residents who enter a 
therapeutic community may rebel against the rigid structure and 
the deprivation of getting high. A lot of addicts are very 
ambivalent about giving up drugs, as destructive as they have 
been. There is a powerful psychological force pulling them back 
to the street.
    Even patients with strong motivation make experience 
flagging resolve or intense drug cravings or they feel better 
and think they either can handle life drug free or that they 
can handle their drugs. Either way, they leave. Self 
discipline, as you know, is not a strong suit of this 
population. Again, when mandated to residential or community 
treatment, the patient can't succumb to these pressures and 
bolt without consequences.
    In summary, these observations and the objective data that 
support them tell us some very important things. First, they 
expose two myths about addiction. The first is that in order to 
benefit from treatment, all patients have to want it. Second, 
to benefit from treatment, a patient has to hit bottom. We can 
catch people before they hit bottom and hopefully you do 
because otherwise, there are diseases to catch and overdoses to 
be suffered.
    Second, for treatment to work, patients have to stay in it 
and one of the best ways to get hard core addicts to stay is 
through leverage. As a clinician, I am certainly happy for all 
the leverage I can get. It is very good to have an outsider 
like a judge calling the shots with swift and certain 
consequences so that I don't wait my time getting caught up in 
negotiations with patients about the rules of compliance. The 
rules are spelled out, and my job is to work collaboratively 
with the patient to help him conform and progress.
    When drug courts work well, they really represent a 
marriage between the so-called moral and medical models of 
addiction. The moral model is punishment, sanctions, and that 
drug users should be held accountable with no assistance. The 
medical model, on the other hand, is all help with no 
expectation of accountability for the patient. I reject both of 
them out right.
    We know that neither of these alone are especially useful. 
In other words, addicts who are incarcerated frequently relapse 
once they are out of jail, but that hard core patients who 
enter treatment 1 day are very likely to bolt the next. 
Together the moral and medical elements complement each other 
for an optimal chance to help addicted men and women.
    Thank you.
    [The prepared statement of Dr. Satel follows:]

    [GRAPHIC] [TIFF OMITTED] T0058.039
    
    [GRAPHIC] [TIFF OMITTED] T0058.040
    
    [GRAPHIC] [TIFF OMITTED] T0058.041
    
    [GRAPHIC] [TIFF OMITTED] T0058.042
    
    [GRAPHIC] [TIFF OMITTED] T0058.043
    
    [GRAPHIC] [TIFF OMITTED] T0058.044
    
    [GRAPHIC] [TIFF OMITTED] T0058.045
    
    [GRAPHIC] [TIFF OMITTED] T0058.046
    
    [GRAPHIC] [TIFF OMITTED] T0058.047
    
    Mr. Mica. Thank you for your testimony.
    We will hear next from Martin Iguchi with the RAND Corp. 
from Santa Monica, CA. You are recognized.
    Mr. Iguchi. Thank you, Mr. Chairman, and thank you for this 
opportunity to testify.
    My name is Martin Iguchi. I am a senior behavioral 
scientist and co-director of the Drug Policy Research Center at 
RAND. I am also a psychologist. My specialty over the past 
decade has been in development and evaluation of drug 
treatment, drug treatment outcomes, as well as evaluation of 
different policy initiatives such as drug treatment on demand.
    Most recently, we have been also working with L.A. County 
Probation to set up a DUI Court in Los Angeles, so we have 
quite a bit of experience in this area.
    While the statement is based on research conducted at RAND, 
the opinions and conclusions are mine and should not be 
interpreted as representing those of RAND or any other agency 
sponsoring our research. I ask that my full written statement 
be entered into the record.
    I am pleased to have this opportunity to comment on the use 
of treatment as an alternative to incarceration as I believe 
that drug courts and other diversion alternatives are exciting 
and valuable innovations by the criminal justice system. My 
colleagues and I have had an opportunity to study this 
relatively new phenomenon and while I may be counted as a 
supporter of such courts, I do have a few comments about 
problems that may arise in implementation.
    Over the past several decades, lawmakers in the United 
States have responded to the drug epidemic with tougher laws 
and longer sentences in an attempt to deter drug use. The 
increase in drug cases has resulted in seriously overloaded 
judicial dockets and a need for reasoned alternatives.
    In 1992, the Drug Policy Research Center conducted a drug 
policy seminar game involving public officials in Florida and 
Washington, DC, that anticipated such a scenario. The players 
in that policy game focused, as we are today, on the need to 
provide drug treatment for those involved in the criminal 
justice system. This emphasis was consistent with our drug 
policy modeling work that indicated treatment might well be a 
more cost effective way to spend additional funds intended to 
reduce cocaine use than other such options as domestic 
enforcement, interdiction or source country control.
    However, as the drug policy game progressed, players came 
to realize that they had focused exclusively on the benefits of 
treatment as an alternative to incarceration with no thought 
given to the possible negative outcomes associated with the 
approach in a larger context.
    Specifically, they came to realize given the limited 
availability of treatment slots for those convicted of crimes 
and those not, they had created a policy that could be 
characterized as ``use a gun, get a treatment slot.''
    Now I don't mean to overstate the negative here as it is 
clear that many communities, such as Brooklyn, NY, have been 
able to implement drug courts without overburdening their drug 
treatment system.
    I do want to raise the issue, however, that we need to be 
certain there is sufficient treatment capacity to support the 
increase in drug treatment demand. We do not want those 
voluntarily seeking treatment to be deprived of the opportunity 
for treatment because the slot is filled with an individual 
mandated to it.
    To highlight how damaging such a scenario might be, I offer 
a short anecdote. A colleague of mine runs a drug education 
outreach and intervention program in south central Los Angeles. 
This colleague spends a great deal of time educating young men 
and women about the dangers of drug use and the advantages of 
abstinence.
    Recently, after multiple interactions, he finally convinced 
two young men to consider treatment for their drug use problem. 
Unfortunately, my colleague was unable to locate a treatment 
program with available slots for the two young men. The only 
publicly funded treatment slots available were set aside for 
juvenile probationers. This scenario is a tragic one. We need 
to be certain that we expand treatment in parallel with the 
development of drug courts so that every person who wants drug 
treatment can find it.
    As a second and related issue, not all who participate in 
drug use in drug courts are screened to determine if they meet 
the diagnostic criteria for drug dependence. While this comment 
does not apply to research rich programs such as the Brooklyn 
Drug-Treatment Alternative to Prison Programs, many programs 
are not as discriminating. This means that many individuals are 
sent to drug treatment who do not require it, putting 
additional pressure on an often overburdened system of care.
    My third comment has to do with the question, ``who should 
run drug courts, prosecutors or judges?'' A number of drug 
courts are operated by the prosecutor's office rather than by 
judges. While I do not question the integrity of prosecuting 
attorneys, some public defenders and defense attorneys have 
voiced concern that prosecutors might be tempted to offer 
access to drug courts only to those who are ``cooperative.''
    While the functional and daily operational characteristic 
of prosecutor courts appear identical to drug courts run by 
judges, I want to provide a word of caution about the 
importance of avoiding perceptions of pressure on defendants. 
For that reason, it seems reasonable that judges and not 
prosecutors should be in charge of drug courts.
    Finally, I want to say that I have been most impressed by 
the dedicated and enthusiastic efforts put forth by those 
involved in both the judicial and treatment communities to make 
drug courts around the country work. While drug courts are 
clearly responsible for a decrease in the pressures of 
overcrowded court dockets, the daily workloads of everyone 
involved in drug courts has actually increased.
    So what leads these dedicated professionals to give so much 
more of themselves for drug court? The answer from all involved 
appears to be that the idea of restorative justice or 
therapeutic jurisprudence is a hopeful one in a context that 
breeds cynicism.
    I attended a drug court graduation ceremony in Rancho 
Cucamonga this month and had a conversation with the court 
magistrate. He stated he looks forward to ending his week with 
drug court every Friday evening. He elaborated that during his 
normal work day, he is faced with doing unpleasant things to 
people who have engaged in bad behavior. But on Friday evening, 
he sees hope and the possibility of rehabilitation. He 
concluded, ``It is definitely worth the extra work.''
    Thank you for your attention to this important matter.
    [The prepared statement of Mr. Iguchi follows:]

    [GRAPHIC] [TIFF OMITTED] T0058.048
    
    [GRAPHIC] [TIFF OMITTED] T0058.049
    
    [GRAPHIC] [TIFF OMITTED] T0058.050
    
    [GRAPHIC] [TIFF OMITTED] T0058.051
    
    [GRAPHIC] [TIFF OMITTED] T0058.052
    
    Mr. Mica. Thank you for your testimony, each and every one 
of you.
    Unfortunately, I have to disagree with some of the products 
of your corporation, Mr. Iguchi. I think in particular, the 
RAND study has probably done more damage to this whole effort 
than anything I have seen in 20 years of dealing with the drug 
problem.
    Last week, during the debate that we had on the floor, we 
heard repeatedly this garbage that was spewed by the study some 
years ago and used by many of those who come forward with a 
solution that just treatment on demand is the answer. It has 
created, I think, a disaster for this country. That happens to 
be my personal opinion.
    I think this administration took the RAND study and used it 
as an excuse to shut down the source country programs and with 
great difficulty we have been trying to get those programs put 
back in place. The most recent is the ongoing effort starting 
last week to get something targeted to Colombia where we know 
shutting down the interdiction and shutting down the source 
country programs has created not only a flood of narcotics 
unlike we even saw in the 1980's, but a more deadly brand, so 
that 15,973 Americans in 1998, the latest figure that I have 
received as chairman of the subcommittee, didn't even get a 
chance for voluntary treatment because they are dead.
    I think that some of the trash that was put out that has 
been used for substantiation of just provide treatment, we have 
nearly doubled the amount of treatment money since 1992 than we 
have the amount of money in interdiction in source country 
programs. With $20-$40 million in Peru and Bolivia over the 
last few years, we have dramatically cut the supply coming in 
and stopped the programs in Colombia which are now the source 
of 80-90 percent of 80 percent pure heroin and cocaine coming 
into this country.
    Your study, in my opinion, has done more damage and 
substantiated a false and ineffective approach because you will 
never end up treating all the people that you are now opening 
up to addiction with the incredible supply that is coming into 
this country. If you could stop the supply, we could put you 
and your study colleagues out of business because we wouldn't 
have to even deal with this topic before us.
    Did you want to respond?
    Mr. Iguchi. I am not fully prepared to respond to that 
particular criticism. I, frankly, didn't come prepared to 
defend our ``Controlling Cocaine'' report. We do, however, 
stand by the integrity of our ``Controlling Cocaine'' report. 
It was reviewed by the National Academy of Sciences and held up 
as a very reasonable frame for viewing policymaking decisions. 
People may quibble with some of the numbers that were input 
into that model, but in evaluation after evaluation of it, we 
have come away convinced that it is a very strong model and it 
is a suitable basis for making policy decisions.
    Mr. Mica. It is a strong model for what? It has been used 
as an example for the treatment on demand. I don't have a 
problem with treatment on demand, but if you have a torrent of 
narcotics coming in and you are creating an addiction 
population.
    We went to Baltimore a week ago and the predictions are 
somewhere in the neighborhood of 80,000 drug addicts where they 
have had a liberalization, where they have focused primarily on 
treatment. They can't keep up with the treatment. Then 50 
percent of the folks don't even show up for treatment in the 
program. I am very concerned that some of these think tanks 
like yours put out things that are used as justification for 
only treatment and then we shelve--and this administration 
shelved the interdiction, cut by 50 percent, and took the 
military out.
    We have reports of now cutting out the surveillance to Peru 
where we have had such great success, 66 percent reduction and 
not providing that assistance so they could go after these 
traffickers so that the stuff isn't in the country.
    In order to qualify for treatment, the big myth in this 
whole thing is when you get to the point of treatment, that 
means you are addict. If you are an addict, that means the 
testimony we have seen, the people we have interviewed in 
prison have committed crimes of violence to the tune of habits 
they support for $100 to $500 a day, many of them committing 
felonies.
    By the time they get to your treatment on demand, it has 
made a joke of the whole system and we have created someone we 
can't deal with. All the programs they are talking about here 
today are only talking about tiny fractions--drug courts, tiny 
fractions--even DTAP, a tiny fraction.
    Yes, we want to help them, but in DTAP most of the people 
we talked to had spent half their lives in prison or in the 
judicial cycle. So the treatment on demand is great, but half 
of those folks don't even want to get in the program or don't 
show up for the program. The only reason they show up for DTAP 
is they are in prison or they have no choice that they are 
going to go back to prison.
    Again, I think the RAND Corp.--it is nice to have you here 
today but I think some of your past studies and conclusions 
have done tremendous damage--maybe you were well intended--but 
by people who were advocates of this one avenue of approach.
    Mr. Iguchi. Mr. Chairman, we can only deal with the numbers 
and data that we have. The studies that have been conducted 
supply the data that go into those kinds of models, and we 
stand by them.
    The problem with focusing on supply reduction is that we 
don't have demonstrated effective supply reduction 
methodologies.
    Mr. Mica. That is crap. That is baloney. I can get the 
charts out here and we can look at what we did with the Andean 
strategy, with the South Americans, and with the Vice 
President's Task Force for going after the stuff. If you want a 
concentrated program for a few bucks in some of these countries 
where the peasants are getting a couple of pesos for that crap, 
you can stop it. There is no question about it. We did it in 
Peru.
    Mr. Iguchi. We did it temporarily.
    Mr. Mica. We did it with President Fujimora. Mr. Hastert, 
who chaired this subcommittee before me, went down and we 
talked to those folks. Ten years ago, you couldn't even walk on 
the streets of Lima because there were bombs going off. The 
Shining Path was ruling the roost and they were also profiting 
from the drug trade. We brought that under control, cut it by 
66 percent. We can do the same thing anywhere we want if we 
have the will.
    Even now the President's own Ambassador to that country has 
sent letters to this administration that again, they are 
changing their policy of not providing the intelligence and 
surveillance information that allows them to shoot down the 
drug traffickers. It sure as hell will stop anybody on 
treatment if you shoot down a plane that is carrying cocaine 
out of that country to the United States. Then you don't have 
to worry about treating them because they don't have the drugs 
in the first place to be addicted to get on the treatment 
program that a lot of them won't even show up or are interested 
in treatment in the first place.
    Mr. Iguchi. I am well aware of----
    Mr. Mica. Mrs. Mink, you are recognized.
    Mrs. Mink. Mr. Chairman, that was an astonishing outburst, 
unforgivable.
    Mr. Mica. Sorry. I apologize.
    Mr. Mink. The witness that I invited to this committee, 
Martin Iguchi, I am sure had nothing to do with the 8-year old 
report of the RAND Corp.
    Mr. Mica. And I didn't accuse him personally.
    Mrs. Mink. You kept saying, ``you, you'' and I found that--
--
    Mr. Mica. The RAND Corp., for the record.
    Mrs. Mink. He is not the RAND Corp., although maybe at 
times he wishes he were. He simply is an investigator, senior 
behavioral scientist, co-director of the Drug Policy Research 
Center at RAND. He doesn't run the entire gamut of the RAND 
Corp. investigative research activities, I am sure. Do you?
    Mr. Iguchi. No, I do not.
    Mrs. Mink. I apologize, Mr. Iguchi, for their asking you to 
answer for the entire RAND Corp.'s research outcomes.
    We debated this last week and that is why it is still very 
much in the environment here because we were debating it last 
week but the RAND Corp., Mr. Chairman, never stated 
specifically that activities to curtail supply were not 
appropriate for this government. I certainly support, as you 
well know, all efforts that we can engage in to limit the 
supply but our efforts should not be limited to only the 
questions of supply but this country has not paid enough 
attention, as I said on the floor last week, to the whole area 
of treatment.
    Efforts have to be made to encourage State and local 
governments to do more as they are doing in the drug court area 
and local prosecutors need to be encouraged to do more in their 
specific areas. So the purpose of this hearing, the purpose of 
inviting Mr. Iguchi to testify, was to get his insights on the 
engagement of the criminal justice system into drug treatment 
and whether it is efficient and whether it is appropriate. It 
is a question of both.
    We know that those that exist are efficient. I have visited 
some, read some of the statements and documents and reports on 
it. The question that Mr. Iguchi raises is the most important 
question that we should be debating. That is the preferential 
selection of individuals to go into these DTAP or drug court 
programs, require that these two areas have special abilities 
to get drug treatment programs for their clients.
    They would be ineffective if while talking to a potential 
enrollee, there was not a space somewhere to put that 
individual into a drug treatment program. The whole thing must 
be interconnected. Whether you are the judge or the prosecutor 
is irrelevant; you have to have a special privileged line 
somewhere to get into the program. Otherwise you are just 
talking in the wind, if only 6 months from now a space will 
open for you.
    That is the condition of the public at large today. We 
can't take everybody who voluntarily says I have a drug problem 
and I really need help. Instead we say to that individual, you 
have to wait 6 months; there is no space. But if you commit a 
crime, you can go to drug court, and they will take care of 
you. That is a terrible alternative. I think Mr. Iguchi raises 
that point and that is a very troubling point which goes back 
ultimately to what the chairman is upset about, and that is our 
concern about the lack of availability of drug treatment 
programs in this country.
    Less than 50 percent of those who seek it are able to get 
it. Our anxieties are really raised because we want to see more 
of these treatment programs, not that it is the end all, cure 
all, but that it is a necessity. If we are going to be honest 
about trying to help people who have a drug problem, we have to 
find more funds to create these treatment programs.
    You testified, Mr. Belenko, that there was a 66 percent 
retention rate in the treatment programs. That was a question 
that Representative Ose asked. That is a confusing statement. 
Exactly what is meant by that statement, there is a 66 percent 
retention rate in the substance treatment program by those that 
are in either drug court or DTAP?
    Mr. Belenko. That figure was referring to the DTAP program. 
What that means is that of those who start the program, 66 
percent of them are still in treatment 1 year later. So it is 1 
year.
    Mrs. Mink. And already detached from DTAP, no longer under 
the supervision?
    Mr. Belenko. In DTAP. DTAP requires 15 to 24 months.
    Mrs. Mink. Even with that coercion as an alternative to 
going to prison, you only have a 66 percent retention in a 
treatment program?
    Mr. Belenko. I think you have to compare it to retention in 
residential treatment generally which is quite low where only 
probably 10 to 30 percent of those who enter residential 
treatment are still there after 1 year. Generally, residential 
treatment requires long term.
    Mrs. Mink. What happens to that 34 percent then that don't 
stay in the program? They are then pushed into the regular 
criminal justice system and ultimately go to jail?
    Mr. Belenko. They are prosecuted and under the DTAP model, 
as the district attorney has designed it, these are offenders 
who are subject to mandatory prison sentences. In fact, 96 
percent of them are returned to court, are prosecuted and 
sentenced to the prison terms they would have gotten had they 
not gone to DTAP.
    Mrs. Mink. The clients that are identified for either drug 
court or DTAP, how are they able to assure their clients the 
ability to enter a treatment program?
    Mr. Belenko. In both models, there are treatment slots 
dedicated by prior agreement.
    Mrs. Mink. By prior agreement, by State law or whatever?
    Mr. Belenko. Yes, through various funding mechanisms.
    Mrs. Mink. So that sets the limits on the number that DTAP 
can take or the number the drug court can take, the 
availability of drug treatment slots.
    Mr. Belenko. I want to also point out that generally drug 
courts are set up with an existing treatment infrastructure in 
place so that they know when participants come into a drug 
court, there will be a treatment slot.
    Mrs. Mink. They run their own, maintain their own?
    Mr. Belenko. Some drug courts operate their own, others use 
existing community-based providers, others contract with a 
single provider in the community.
    Mrs. Mink. But still, the limitation is availability of 
drug treatment slots?
    Mr. Belenko. That is always the limitation, yes.
    Mrs. Mink. If there was not such a limitation and drug 
treatment spaces were readily available through out the 
country, what would be that effect on the number of people that 
would be in the program? Would it double the program, triple 
the program, quadruple it?
    Mr. Belenko. There are still limitations because at some 
point drug court staff would be overwhelmed with cases. As 
under traditional probation where probation officers may have 
150 to 200 probationers to supervise, you don't want a drug 
course where a case manager or a judge has to supervise too 
many cases because I think some individual attention is 
required. So there may be limits in a single courtroom of how 
many cases you want, but certainly there is room for expansion.
    Mrs. Mink. In the usual congressional budget-type analysis, 
the question would be put what is the average cost per client 
in the drug court system, maintained in the drug court system 
as against the DTAP system, as against going to prison?
    Mr. Belenko. Judge Tauber mentioned the figure, I think, of 
$2,000 per year.
    Mrs. Mink. $2,000 in DTAP?
    Mr. Belenko. For drug court. Drug courts generally use 
outpatient treatment models which is much cheaper than 
residential. DTAP uses a residential treatment model which is 
more expensive, my guess would be $10,000-$15,000 per year.
    Mrs. Mink. DTAP clients are typically detained in 
residential centers?
    Mr. Belenko. They are required to be in residential 
treatment under a therapeutic community model which is very 
intensive and long-term treatment. The average cost of a prison 
nationwide, is probably about $22,000 a year or so. In New 
York, it is closer to $30,000, I believe. Prison is clearly the 
most expensive; residential is much cheaper. Outpatient 
treatment, which most drug courts use, is even cheaper than 
that. Relatively inexpensive, not cheap.
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Mica. Thank the gentlelady. I am sorry for berating 
your witness today. I just saw RAND Corp., and Mr. Iguchi has 
been before us and I have been very polite to him.
    Mrs. Mink. You should apologize to him for ranting and 
raving.
    Mr. Mica. After hearing a day and a half of debate.
    Mrs. Mink. I thought it was a brilliant debate, especially 
my part.
    Mr. Mica. You were, in fact, brilliant, but using the RAND 
Corp. study of past in such a distorted fashion.
    Mrs. Mink. Don't start again or I will take another 5 
minutes.
    Mr. Mica. I don't know if Mr. Iguchi was involved in that 
study, I am sure he wasn't.
    Mr. Iguchi. I joined the RAND Corp. 2 years ago.
    Mrs. Mink. You didn't extend him the courtesy of asking if 
he was there.
    Mr. Mica. Just representing the corporation that did the 
study that I felt did a lot of damage.
    Mrs. Mink. He specifically said in his opening, I do not 
represent the corporation today.
    Mr. Mica. He had to bear the brunt of it and if you want to 
hear more, tune in tonight for 1 hour in special orders when I 
will finish my comments about the misuse of the study. I am 
sure the RAND Corp. does very good in compiling statistics and 
data in a fairly level, non-biased fashion but again, the 
misuse of that concerns me.
    My concern is that the programs we have heard of today are 
great. They do serve a very small portion of the population and 
in order to qualify for those programs, those individuals have 
had to reach addiction, the need for treatment, had to have 
committed a crime, in many cases serious crimes and felonies, 
and they have also had to face the possibility of prison and my 
concern is that it is much more cost effective if we want to do 
a cost benefit analysis, if those individuals are never 
subjected in the first place to even using illegal narcotics 
and then also a balanced approach. I have never advocated not 
doing treatment or any of these programs. They are necessary 
but when you take out key elements, you put yourself at risk, 
again subjecting more people to becoming victims of illegal 
narcotics addiction, use of treatment which follows and prison, 
all of which have even marginal success rates, even these that 
we have heard from today.
    I do want to thank all of our witnesses for providing 
testimony before us today. It does help us, particularly with 
the model of the DTAP Program. We hopefully can support that 
nationally. We are already supporting the drug courts 
nationally and I hope that support will continue and we can 
have successful programs in both areas.
    There being no further business to come before the 
subcommittee at this time, this hearing is adjourned.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]


</pre></body></html>
